No.
In the Supreme Court of the United States

WILLIAM JAMES JONAS, III,

PETITIONER,
V.

UNITED STATES OF AMERICA
RESPONDENT

CERTIFICATE OF SERVICE

 

I, George W. Aristotelidis, do swear or declare that on this date, the 14" day
of December, 2020, as required by Supreme Couurt Rule 29, I have served the
enclosed petition for writ of certiorari on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days. The party
served is: Mr. Jeffrey B. Wall, Solicitor General of the United States and Counsel
of Record, United States Department of Justice, 950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001, (202) 514-2201, and Mr. Joseph S. Gay, Assistant
United States Attorney, at 601 N.W. Loop 410, Suite 600, San Antonio, Texas
78216, (210) 384-7100.
    

Mristotelidis
CJA Appointed Counsel
Tower Life Building
310 South St. Mary’s St., Suite 100
San Antonio, Texas 78205
(210) 277-1906 - Telephone
jgaristo67@gmail.com

DATED: December 14, 2020.
